                                                                 Issue Date
                                                                         April 9, 2010
                                                                 Audit Report Number
                                                                         2010-CH-1005




TO:         Thomas S. Marshall, Director of Public Housing Hub, 5DPH
            James M. Beaudette, Acting Director of Departmental Enforcement Center, CV


FROM:       Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: Housing Authority of the City of Terre Haute, IN, Did Not Effectively Operate
           Its Section 8 Housing Quality Standards Inspection Program

                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Housing Authority of the City of Terre Haute’s (Authority)
             Section 8 Housing Choice Voucher program (program). The audit was part of the
             activities in our fiscal year 2010 annual audit plan. We selected the Authority
             based upon our analysis of risk factors relating to the housing agencies in Region
             V’s jurisdiction and our audits of the Authority’s nonprofit development
             activities, Public Housing Capital Fund program, and Turnkey III
             Homeownership program. Our objective was to determine whether the Authority
             administered its program in accordance with applicable U.S. Department of
             Housing and Urban Development (HUD) requirements and the Authority’s
             program administrative plan. This is the first of two planned audit reports on the
             Authority’s program.

 What We Found

             The Authority’s program administration regarding housing unit conditions was
             inadequate. Of the 55 housing units statistically selected for inspection, 31 did
             not meet HUD’s housing quality standards, and 22 had 133 violations that existed
             at the time of the Authority’s previous inspections. The 22 units had between 1
             and 32 preexisting violations per unit. Based on our statistical sample, we
           estimate that over the next year, HUD will pay more than $341,000 in housing
           assistance for units with material housing quality standards violations.

           The Authority generally complied with Federal regulations when abating units
           that failed inspections.

What We Recommend

           We recommend that the Director of HUD’s Cleveland Office of Public Housing
           require the Authority to reimburse its program from non-Federal funds for the
           improper use of more than $11,000 in program funds and implement adequate
           procedures and controls to address the finding cited in this audit report to prevent
           more than $341,000 from being spent on units with material housing quality
           standards violations over the next year.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence issued because of the audit.

Auditee’s Response

           We provided our review results and supporting schedules to the Director of
           HUD’s Cleveland Office of Public Housing and the Authority’s executive director
           during the audit. We provided our discussion draft audit report to the Authority’s
           executive director, its board chairman, and HUD’s staff during the audit. We held
           an exit conference with the executive director on March 29, 2010.

           We asked the executive director to provide comments on our discussion draft
           audit report by April 1, 2010. The executive director provided written comments,
           dated March 31, 2010. The executive director generally agreed with our finding.
           The complete text of the written comments, along with our evaluation of those
           comments, can be found in appendix B of this report except for 34 pages of
           documentation that was not necessary for understanding the Authority’s
           comments. A complete copy of the Authority’s comments plus the
           documentation was provided to the Director of HUD’s Cleveland Office of Public
           Housing.




                                             2
                            TABLE OF CONTENTS

Background and Objective                                                 4

Results of Audit
      Finding: Controls Over Housing Unit Inspections Were Inadequate    5

Scope and Methodology                                                   12

Internal Controls                                                       14

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use    16
   B. Auditee Comments and OIG’s Evaluation                             17
   C. Federal Requirements                                              21




                                            3
                       BACKGROUND AND OBJECTIVE

The Housing Authority of the City of Terre Haute (Authority), IN, was established on April 28,
1960, as a municipal corporation under Section 36-7-18-4 of the Indiana Code to provide decent,
safe, and sanitary housing to low-income families under the United States Housing Act of 1937.
The Authority is governed by a seven-member board of commissioners appointed by the mayor
of Terre Haute to 4-year terms. The board governs the business, policies, and transactions of the
Authority. The executive director is appointed by the board and has overall responsibility for
carrying out the board’s policies and managing the Authority’s day-to-day operations. The
Authority’s books and records are located at 2001 North 19th Street, Terre Haute, IN. As of
January 31, 2010, the Authority owned 868 low-rent public housing units in six projects,
administered 857 Section 8 voucher units, and managed another 169 housing units for two
nonprofit and two for-profit entities.

This is the third of five planned audit reports on the Authority’s programs. The first audit report
(report #2009-CH-1011, issued on July 31, 2009) included three findings. The objectives of our
first audit were to determine whether the Authority diverted or pledged resources subject to its
annual contributions contract, other agreement, or regulation for the benefit of non-U.S.
Department of Housing and Urban Development (HUD) developments without specific HUD
approval. The second audit report (report #2009-CH-1017, issued on September 29, 2009)
included one finding. The objective of the second audit was to determine whether the Authority
followed HUD’s requirements regarding the administration of its Turnkey III Homeownership
program. The fourth audit’s objectives are to determine whether the Authority: (1) effectively
administered its Capital Fund Program, and followed HUD’s and its requirements; and (2) has
the capacity to administer its American Recovery and Reinvestment Act of 2009 Capital Fund
program.

Our objective was to determine whether the Authority’s Section 8 Housing Choice Voucher
program (program) units met HUD’s housing quality standards when the units passed the
Authority’s previous inspections. This is the first of two planned audit reports on the Authority’s
program.




                                                 4
                                 RESULTS OF AUDIT

Finding: Controls Over Housing Unit Inspections Were Inadequate
The Authority did not adequately enforce HUD’s housing quality standards. Of the 55 program
units statistically selected for inspection, 31 failed to meet minimum housing quality standards,
and 22 had material violations that existed before the Authority’s previous inspections. The
violations existed because the Authority failed to exercise proper supervision and oversight of its
program unit inspections. It also lacked adequate procedures and controls to ensure that its
program units met HUD’s housing quality standards. As a result, more than $10,000 in program
funds was spent on units that were not decent, safe, and sanitary. Based on our statistical
sample, we estimate that over the next year, HUD will pay more than $341,000 in housing
assistance on units with material housing quality standards violations.


 HUD’s Housing Quality
 Standards Not Met

               From the 292 program units that were inspected by the Authority from September
               1 through December 7, 2009, we statistically selected 55 units for inspection by
               using data mining software. The 55 units were inspected to determine whether
               the Authority ensured that its program units met HUD’s housing quality
               standards. We inspected the 55 units between January 11 and January 26, 2010.

               Of the 55 units inspected, 31 (56 percent) had 207 housing quality standards
               violations including 133 violations that predated the Authority’s previous
               inspections. In addition, 22 units containing 133 violations were considered in
               material noncompliance since they had health and safety violations and/or
               multiple violations that predated the Authority’s previous inspections. The
               following table categorizes the 207 violations in the 31 units.




                                                 5
                                                                 Number of
                                  Category of violations         violations
                          Electrical                                58
                          Windows                                    39
                          Stairs, rails, and porches                 23
                          Floor                                      16
                          Other potentially hazardous features       14
                          Smoke detectors                            8
                          Ventilation                                8
                          Security                                   7
                          Ceiling                                    5
                          Infestation                                5
                          Interior walls and surfaces                4
                          Foundation                                 4
                          Garbage and debris                         4
                          Lead-based paint                           3
                          Toilet                                     3
                          Sink                                       3
                          Exterior surfaces                          3
                                            Total                   207

              We provided our inspection results to the Director of HUD’s Cleveland Office of
              Public Housing and the Authority’s executive director on February 23, 2010.

Electrical Violations


              Fifty-eight electrical violations were present in 22 of the Authority’s units
              inspected. The following items are examples of the electrical violations listed in
              the table: outlets with open ground, disconnect boxes with exposed electrical
              contacts, ground fault circuit interrupters that did not turn off once tripped,
              exposed electrical outlets, and holes or gaps in a breaker box. The following
              pictures are examples of the electrical-related violations.


  Household 9236: The
  fuse box on a
  basement stairway
  was without a cover
  and had exposed
  electrical contacts.




                                                   6
 Household 8936: The
 electrical outlet pulls
 out of a kitchen wall.




Window Violations


               Thirty-nine window violations were present in 16 of the Authority’s units
               inspected. The following items are examples of window violations listed in the
               table: windows that did not stay up, windows that did not lock, rotted sashes and
               frames, broken panes, and windows that would not open. The following pictures
               are examples of the exterior window violations identified.

  Household 7614: The
  window sash did not
  meet to close off a gap,
  and the glass pane was
  cracked.




                                                7
  Houseehold 7614: A
  large gap
         g between th   he
  top off the window an  nd
  the window frame
  was fillled with
  fibrous material and
  alloweed air filtration
                        n.
  A winndow pane in a
  youngg (5 years old)
  child’ss room was
  brokenn.




Stair, Rail,
       R     and Po
                  orch
Violatioons


                 Twentty-three stairr, rail, and porch
                                                 p      violatioons were preesent in 15 of o the Authorrity’s
                 units inspected.
                        i           T followinng items are examples
                                    The                         e         off the stair, raail, and porchh
                 violations listed inn the table: handrails tooo short, misssing handrails, crumblinng
                 stairs,, and porches with rottinng rails. Thee following pictures
                                                                           p          are examples
                                                                                            e         of stair,
                 rail, annd porch vioolations.

  Houseehold 102311: A
  loose handrail
          h         post on
                         o
  the lefft side of the
  porch was tied with
  wires tot a metal rod in
  an unssuccessful
  attemppt to reinforce it.
                          i




                                                      8
 Household 5296:
 Parts of the railing
 around the rear porch
 were rotten and
 unstable.




Adequate Procedures and
Controls Lacking


              The Authority failed to exercise proper supervision and oversight of its program
              unit inspections. It also lacked adequate procedures and controls to ensure that its
              program units met HUD’s requirements. The Authority has more than 850 units
              in its program at any given time. It previously employed two inspectors who also
              inspected the public housing units. As of October 2009, the Authority had only
              one inspector. Additionally, the inspector performed inspections for the
              Authority’s homeless grant and the Housing Authority of Edgar County, Illinois’
              Section 8 program.

              The inspector did not utilize HUD’s inspection checklist, HUD form 52580, while
              conducting inspections and only filled out an inspection checklist when a unit
              passes the inspection. This has been the Authority’s procedure for at least 20
              years. HUD’s Housing Choice Voucher Guidebook, 7420.10G, Chapter 10, states
              that in order to meet all housing quality standards requirements, inspections must
              be conducted and recorded using form HUD 52580-A or HUD 52580.

              The Authority’s inspector stated he neglected to report violations that existed at
              the units when he did inspections to increase the housing stock and enable the
              Authority to utilize its available vouchers. He was aware that he did not conduct
              inspections in accordance with federal regulations.

              The Authority’s executive director stated that he requires his employees to follow
              Federal regulations. However, the Authority had not conducted quality control
              reinspections since October 2009 or contract to have them completed. HUD’s
              Housing Choice Voucher Guidebook, 7420.10G, Chapter 10, states that quality
              control reinspections should be conducted by staff trained in the authority’s
              inspection standards and those staff members should receive the same guidance as
              other authority inspectors on inspection policies and procedures. The Authority

                                               9
             needs to ensure that its inspector(s) is equipped with the knowledge needed to
             consistently perform inspections in compliance with HUD’s housing quality
             standards requirements.

Conclusion


             The housing quality standards violations existed because the Authority failed to
             exercise proper supervision and oversight of its program unit inspections. It also
             lacked adequate procedures and controls to ensure that its program units met
             HUD’s housing quality standards. The Authority’s households were subjected to
             health- and safety-related violations, and the Authority did not properly use its
             program funds when it failed to ensure that units complied with HUD’s housing
             quality standards. In accordance with 24 CFR (Code of Federal Regulations)
             982.152(d), HUD is permitted to reduce or offset any program administrative fees
             paid to a public housing authority if it fails to enforce HUD’s housing quality
             standards. The Authority disbursed $10,447 in housing assistance payments for
             the 22 units that materially failed to meet HUD’s housing quality standards and
             received $1,497 in program administrative fees.

             If the Authority implements adequate procedures and controls over its unit
             inspections to ensure compliance with HUD’s housing quality standards, we
             estimate that it can avoid spending more than $341,000 over the next year in
             housing assistance payments on units that are not decent, safe, and sanitary. Our
             methodology for this estimate is explained in the Scope and Methodology section
             of this audit report.

Recommendations

             We recommend that the Director of HUD’s Cleveland Office of Public Housing
             require the Authority to

                1A. Certify that the applicable housing quality standards violations have
                    been repaired.

                1B. Reimburse its program $11,974 from non-Federal funds ($10,477 for
                    program housing assistance payments plus $1,497 in associated
                    administrative fees) for the 22 units that materially failed to meet HUD’s
                    housing quality standards.

                1C. Implement procedures and controls to ensure that program units meet
                    housing quality standards, thereby ensuring that $341,088 in program
                    funds is expended only on units that are decent, safe, and sanitary.

                1D. Implement adequate procedures and controls to ensure that it meets
                    HUD’s requirements for conducting and documenting quality control
                    inspections.
                                             10
We also recommend that the Director of HUD’s Cleveland Office of Public
Housing, in conjunction with the Acting Director of HUD’s Departmental
Enforcement Center

   1E. Pursue the appropriate administrative sanction(s) against the Authority’s
       inspector for failing to enforce HUD’s housing quality standards, if within
       six months his performance is not in accordance with HUD’s
       requirements.




                                11
                         SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

               •   Applicable laws, HUD’s program requirements at 24 CFR Part 982, and HUD’s
                   Housing Choice Voucher Guidebook 7420.10.

               •   The Authority’s program administrative plan, revised July 2007; accounting
                   records; annual audited financial statements for 2007 and 2008; program
                   household files; computerized databases; policies and procedures; board meeting
                   minutes for 2007, 2008, and 2009; organizational chart; and program annual
                   contributions contract.

               •   HUD’s files for the Authority.

We also interviewed the Authority’s employees, HUD staff, and program households.

We statistically selected 55 of the Authority’s program units to inspect from the 292 units that
were inspected by the Authority and passed from September 1 through December 7, 2009, using
data mining software. The 55 units were selected to determine whether the Authority ensured
that its program units met HUD’s housing quality standards. Our sampling criteria used a 90
percent confidence level with a 50 percent estimated error rate and precision level of plus or
minus 10 percent.

Our sampling results determined that 22 of the 55 units (40 percent) materially failed to meet
HUD’s housing quality standards. Materially failed units were those considered to have health
and safety violations and/or multiple violations that predated the Authority’s previous
inspections.

The Authority’s Voucher Management System reports for the 12-month period January to
December 2009 showed that the average monthly housing assistance payment was $323
($3,151,327 divided by 9,761 units). Projecting our sampling results of the 22 units that
materially failed to meet HUD’s housing quality standards to the population indicates that 88
units or 30.21 percent of the population contained the attributes tested (would materially fail to
meet HUD’s housing quality standards). The sampling error was plus or minus 9.79 percent. In
other words, we are 90 percent confident that the frequency of occurrence of the attributes tested
lies between 30.21 and 49.79 percent of the population. This frequency equates to an occurrence
of between 88 and 145 of the 292 units in the population.

       •   The lower limit is 30.21 percent times 292 units equals 88 units that materially failed
           to meet HUD’s housing quality standards.
       •   The point estimate is 40 percent times 292 units equals 117 units that materially failed
           to meet HUD’s housing quality standards.
       •   The upper limit is 49.79 percent times 292 units equals 145 units that materially
           failed to meet HUD’s housing quality standards.


                                                12
Using the lower limit of the estimate of the number of units and the average housing assistance
payment, we estimate that the Authority will annually spend $341,088 (88 units times $323
monthly average payment times 12 months) for units that materially failed to meet HUD’s
housing quality standards. This estimate is presented solely to demonstrate the annual amount of
program funds that could be put to better use on decent, safe, and sanitary housing if the
Authority implements our recommendation. While these benefits would recur indefinitely, we
were conservative in our approach and only included the initial year in our estimate.

We performed our on-site audit work between October 2009 and January 2010 at the Authority’s
office located at 2001 North 19th Street, Terre Haute, IN. The audit covered the period October
1, 2007, through August 31, 2009, but was expanded when necessary to include other periods.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our finding and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objective.




                                               13
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are achieved:

   •   Program operations,
   •   Relevance and reliability of information,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding of assets and resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. They include the processes and procedures for planning,
organizing, directing, and controlling program operations as well as the systems for measuring,
reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined that the following internal controls were relevant to our objective:

              •       Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               14
Significant Weakness

           Based on our review, we believe that the following item is a significant weakness:

           •      The Authority lacked procedures and controls to ensure compliance with
                  HUD’s requirements regarding unit inspections (see finding).




                                            15
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                    Recommendation                        Funds to be put
                        number            Ineligible 1/    to better use 2/
                           1B                 $11,974
                           1C                                   $341,088
                          Totals              $11.974           $341,088


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if the Authority implements our
     recommendation, it will cease to incur program costs for units that are not decent, safe,
     and sanitary and, instead, will expend those funds in accordance with HUD’s
     requirements. Once the Authority successfully improves its controls, this will be a
     recurring benefit. Our estimate reflects only the initial year of this benefit.




                                            16
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




Comment 3


Comment 4




Comment 5




                         17
Ref to OIG Evaluation   Auditee Comments




Comment 6

Comment 7


Comment 8

Comment 9




Comment 10




                         18
                        OIG Evaluation of Auditee Comments
Comment 1     All the reinspection certifications need to be evaluated by HUD. It is HUD’s
              responsibility to make the final determination as to whether the certifications are
              appropriate.

Comment 2     We commend the Authority for taking steps to improve its inspection process.
              However, the Authority had not conducted an analysis to determine the number of
              inspectors it needed to sufficiently inspect its program units as suggested in
              HUD’s Housing Choice Voucher Guidebook, Chapter 10, page 10-24.

Comment 3     We acknowledge the Authority’s efforts and look forward to HUD’s verification
              that the monitoring mechanism was sufficient to address the matter.

Comment 4     While we do not disagree that quality control inspections are only required once a
              fiscal year, we do not agree with the Authority waiting until August 2010 to
              conduct them. The sooner the Authority begins the process, the sooner it can start
              addressing the deficiencies in its inspection process.

Comment 5     We commend the Authority for its prompt action to the inspection results
              completed in May 2010. As previously noted above in comment 1, HUD needs to
              ensure that all certifications of repairs or abatements have been appropriately
              received and completed.

Comment 6     The Authority failed to perform its program administrative responsibilities
              correctly. Therefore, we recommend a penalty or offset of the administrative
              fees.

Comment 7     The Authority’s proposed actions, if fully implemented, should establish
              procedures and controls to ensure that units meet HUD’s housing quality
              standards and units are decent, safe, and sanitary. The Authority should provide
              supporting documentation to HUD’s staff who will work with the Authority to
              resolve the recommendations.

Comment 8     The Authority did not have a quality control inspection program in place as of
              March 2010. Until such time as the Authority implements a quality control
              program, the Authority is not in compliance with HUD’s requirements.

Comment 9     We regret the decision to include a recommendation for administrative sanctions
              prior to us being able to fully discuss the recommendation with the Authority.
              However, the Authority’s inspector knowingly disregarded HUD’s requirements
              in conducting housing quality standards to benefit the Authority, its landlords, and
              its tenants. The Authority had not been operating with procedures and controls.
              The best preventive measure is procedures and controls over the inspection
              process to ensure housing quality standards are applied.

Comment 10 The proposed actions, if fully implemented, should establish procedures and
           controls over the Authority’s inspection process. HUD will make the final
                                               19
determination as to whether the housing inspector is conducting his inspections in
accordance with HUD’s requirements. Therefore, recommendation 1E was
revised to reflect this.




                                20
Appendix C

                           FEDERAL REQUIREMENTS

HUD’s regulations at 24 CFR 982.305(a) state that the public housing authority may not give
approval for the family of the assisted tenancy or approve a housing assistance contract until the
authority has determined that the following meet program requirements: (1) the unit is eligible,
(2) the unit has been inspected by the housing authority and meets HUD’s housing quality
standards, and (3) the rent to the owner is reasonable.

HUD’s regulations at 24 CFR 982.401 require that all program housing meet HUD’s housing
quality standards performance requirements, both at commencement of assisted occupancy and
throughout the tenancy.

HUD’s regulations at 24 CFR 982.404(a) state that the owner must maintain the unit in
accordance with HUD’s housing quality standards. If the owner fails to maintain the dwelling
unit in accordance with HUD’s housing quality standards, the authority must take prompt and
vigorous action to enforce the owner’s obligations. Remedies for such breach of the housing
quality standards include termination, suspension, or reduction of housing assistance payments
and the termination of the housing assistance payments contract. The authority must not make
any housing assistance payments for a dwelling unit that fails to meet the housing quality
standards unless the owner corrects the defect within the period specified by the authority and
the authority verifies the correction. If a defect is life threatening, the owner must correct the
defect within 24 hours.

Federal regulations at 2 CFR 2424.10 state that HUD adopted, as HUD’s policies, procedures,
and requirements for nonprocurement debarment and suspension, the federal regulations at 2
CFR Part 180.

HUD’s regulations at 24 CFR 24.1 state that the policies, procedures, and requirements at 2 CFR
Part 2424 permit HUD to take administrative sanctions against employees of recipients under
HUD assistance agreements that violate HUD’s requirements. The sanctions include debarment,
suspension, or limited denial of participation and are authorized by 2 CFR 180.800, 2 CFR
180.700, or 2 CFR 2424.1110, respectively. HUD may impose administrative sanctions based
upon the following conditions:

      Failure to honor contractual obligations or to proceed in accordance with contract
       specifications or HUD regulations (limited denial of participation);

      Violation of any law, regulation, or procedure relating to the application for financial
       assistance, insurance, or guarantee or to the performance of obligations incurred pursuant
       to a grant of financial assistance or pursuant to a conditional or final commitment to
       insure or guarantee (limited denial of participation);




                                                 21
   Violation of the terms of a public agreement or transaction so serious as to affect the
    integrity of an agency program, such as a history of failure to perform or unsatisfactory
    performance of one or more public agreements or transactions (debarment); or

   Any other cause so serious or compelling in nature that it affects the present
    responsibility of a person (debarment).




                                             22
